No. __________
IN THE

JORGE DE LOS SANTOS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. The petitioner was
represented by counsel appointed in the district court under the Criminal Justice
Act, 18 U.S.C. ยง 3006A(b). This motion is brought pursuant to Sup. Ct. R. 39.1.

June 2, 2021

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

JAMES H. LOCKLIN *
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

